FEDERAL LAWS:
Help America Vote Act
Equal Protection under 14th Amendment
Amdtl4.S1.4.3.3.3.1.2 Partisan Gerrymandering
Amdtl4.S1.4.3.3.3.1.1 Dilution of the Right to Vote
Public Law 111 - 274 - Plain Writing Act of 2010
EXHIBITS:

1

i
j

Exhibit A: (thumb drive) Violation of Act 136 as per link of Office of Elections
Exhibit B: (photo) Violation of HRS§12-21,16-1(1),16-41 (Signature cards with no
security verifications, no ID required, no witness)
Exhibit C: (photo) Violation of HRS§11-17 (Extra ballots sent to dead or moved voters)
Exhibit D: (photo) Violation of HRS 16-43 (Only one observer instead of 2 or more
officials)
Exhibit E: Violation of HRS 16-43 (Only one observer instead of 2 officials)
Exhibit F: (photo) Violation of HRS§12-21,16-41. Non-working barcodes with no linkage
to actual ballots, no paper trail. No chain of custody.
Exhibit G: (photo) Extra Primary ballots
Exhibit H: Confusing primary ballot, HRS§12-41(b) Organization of parties and
nonpartisan.
Exhibit I: (Video clip-thumb drive) Ballot collection at Kane'ohe District Park
Exhibit J: (Video clip - thumb drive) August 11,2020 Scott Nago has admitted on video
meeting 100,000 ballots went to dead voters, wrong addresses, people that moved.
They are still on the voter registration rolls.
Exhibit K: Printouts 2,3,4 General election. Vote trend is for Trump. Printout 1 is missing.

•

Exhibit L: Data gathered from Office of Elections "Final Report" 11/19/202010:18:14
am.
Exhibit M: Certified mail receipts for Klean House Hawaii complaint for violations mailed
to Agencies.
Exhibit N: Klean House Hawaii complaint for violations, signed copy

?

t\
I

’

r

:
l

1
f
■

t.
:

r
t
i

I

;

:
■

\
i:

Electronically Filed
Supreme Court
SCEC-20-0000721
08-DEC-2020
08:41 AM
Dkt. 53 OGMD
SCEC-20-0000721
IN THE SUPREME COURT OF THE STATE OF HAWAl‘1
EMIL SVRCINA; KARL DICKS; and BANNER FANENE, Plaintiffs,
vs.
SCOTT T. NAGO, in his capacity as Chief Election Officer
for the State of Hawai'i; STATE OF HAWAl‘l OFFICE OF ELECTIONS;
and GLEN TAKAHASHI, in his capacity as City Clerk
of the City and County of Honolulu, Defendants.
ORIGINAL PROCEEDING
ORDER DISMISSING ELECTION COMPLAINT
(By: Recktenwald, C.J., Nakayama, McKenna, and Wilson, JJ.,
and Circuit Judge To‘oto‘o, assigned by reason of vacancy)
Upon consideration of plaintiffs Emil Svrcina, Karl
Dicks, and Banner Fanene's election complaint, filed on November
23, 2020, defendants Chief Election Officer Scott T. Nago and the
State of Hawai'i Office of Elections' motion to dismiss, filed on
November 27, 2020, defendant City Clerk of the City and County of
Honolulu Glen Takahashi's joinder to the motion to dismiss, filed
on November 30, 2020, Plaintiffs' response to the motion to
dismiss, filed on December 2, 2020, the respective supporting
documents, and the records and files herein, it appears that:
(1) any request for relief with regards to the August 8, 2020
Primary Election is untimely, see HRS § 11-173.5 (election
contests of a primary election shall be filed no later than the

thirteenth day after the primary election);

(2) Plaintiffs lack

standing to challenge the results of all federal, state, and
county races for the August 8, 2020 Primary Election and the
November 3, 2020 General Election, see HRS § 11-172 (an election
contest shall be filed by "any candidate, or qualified political
party directly interested, or any thirty voters of any election
district"); and (3) even if Plaintiffs had standing, they can
prove no set of facts in support of their claims that would
entitle them to relief, see HRS § 11-172 ("The complaint shall
set forth any cause or causes, such as but not limited to,
provable fraud, overages, or underages, that could cause a
difference in the election results."); Tataii v. Cronin, 119
Hawai‘i 337, 339, 198 P.3d 124, 126 (2008); Akaka v. Yoshina, 84
Hawai'i 383, 935 P.2d 98 (1997); Funakoshi v. King, 65 Haw. 312,
317-18, 651 P.2d 912, 915 (1982).

Accordingly,

IT IS HEREBY ORDERED that the motion to dismiss is
granted and the complaint is dismissed.
IT IS HEREBY FURTHER ORDERED that all pending motions
are dismissed.
DATED: Honolulu, Hawai'i, December 8, 2020.
/s/ Mark E. Recktenwald
Is/ Paula A. Nakayama
Is/ Sabrina S. McKenna
Is/ Michael D. Wilson
Is/ Fa‘auuga To‘oto‘o

2

Dicks v. Office of Elections, Not Reported in Pac. Rptr. (2020)
2020 WL 4784674

2020 WL 4784674
Only the Westlaw citation is currently available.
Unpublished opinion. See HI
R RAP Rule 35 before citing.

(By: Recktenwald, C.J., Nakayama, McKenna, and Wilson,
JJ., and Circuit Judge To‘oto‘o, assigned by reason of
vacancy)
*1 We have considered the August 10, 2020 election
complaint filed by Plaintiff Karl O. Dicks and the August 14,
2020 motion to dismiss filed by Defendant State of Hawaii,
Office of Elections. Having heard this matter without oral

Supreme Court of Hawaii.

argument and in accordance with pHRS § 11-173.5(b)

Karl O. DICKS, Plaintiff,
v.
State of Hawaii, OFFICE
OF ELECTIONS, Defendant.

(requiring the supreme court to “give judgment fully stating
all findings of fact and of law”), we set forth the following
findings of fact and conclusions of law and enter the following
judgment.

SCEC-20-0000505
August l8, 2020

FINDINGS OF FACT

ORIGINAL PROCEEDING

FINDINGS OF FACT. CONCLUSIONS
OF L AW AND JUDGMENT

1. Plaintiff Karl O. Dicks (“Dicks”) was one of fifteen
candidates for the City and County of Honolulu mayoral seat
in the August 8,2020 primary election.
2. According to the primary election summary printout, the
election results for the City and County of Honolulu mayoral
seat were:

Rick Blangiardi

69,510 (25.3%)

Keith Amemiya

55,002 (20.0%)

Colleen Hanabusa

50,120 (18.2%)

Kym Marcos Pine

40,008 (14.5%)

Mufi Hannemann

26,975 (9.8%)

William (Bud) Stonebraker

17,710 (6.4%)

Choon James

5,520 (2.0%)

John Carroll

2,005 (0.7%)

Ho Yin (Jason) Wong

1,434 (0.5%)

Ernest Caravalho

1,136 (0.4%)

Audrey Keesing

822 (0.3%)

Micah Laakea Mussell

538 (0.2%)

David (Duke) Bourgoin

367 (0.1%)

Karl O. Dicks

358 (0.1%)

APPENDIX A
WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Dicks v. Office of Elections, Not Reported in Pac. Rptr. (2020)
2020 WL 4784674

311 (0.1%)

Tim Garry
Over Votes

3,046 (0.1%)

Over Votes

249 (0.1%)

3. Rick Blangiardi and Keith Amemiya received the highest
number of votes.

the complaint, the complaint fails to state claims upon which
relief can be granted.

4. On August 10, 2020, Dicks filed a document entitled
“Notice of Appeal” in which he seeks to “object” and
“protest” the results of the 2020 primary election. Dicks
alleges, among other things, that there were “multiple
irregularities” with the primary election, because it was
“poorly planned,” “poorly managed,” and there was a “lack
of proper security for ballots.”

*2 4. When reviewing a motion to dismiss a complaint for
failure to state a claim upon which relief can be granted, the
court must accept the plaintiffs allegations as true and view
them in the light most favorable to the plaintiff; dismissal is
proper only if it appears beyond doubt that the plaintiff can
prove no set of facts in support of his or her claim that would
entitle him or her to relief. ^C?AFL Hotel & Restaurant

5. Dicks asks this court to nullify the results of the primary
election and allow all candidates who choose to continue to
the November general election to have their names appear on
the ballot.
6. Defendant State of HawaiT, Office of Elections Nago
moves to dismiss the complaint on the grounds that the
complaint does not fall within this court's jurisdiction for
original proceedings to determine the results of a primary
election and fails to state a claim upon which relief can be
granted.

CONCLUSIONS OF LAW
1. W FIRS § 11-172 provides that a copy of the complaint for
an election contest “shall be delivered to the chief election
officer or die clerk in the case of county elections.”
2. An election for mayor for the City and County of
Honolulu is a county election administered by the city clerk
for the City and County of Honolulu. The city clerk for
the City and County of Honolulu, therefore, is a necessary
and indispensable part)' who should have been named as
a defendant and served with a copy of the complaint The
record, however, is devoid of any evidence that the city cleric
for the City and County of Honolulu was named a defendant
or served with a copy of the complaint and summons.
3. Even if the city clerk for the City and County of Honolulu
was named or joined as a defendant and served with a copy of

Workers Health & Welfare Trust Fund v. Bosque. 110 Hawai‘i
318, 321, 132P.3d 1229, 1232 (2006).
5. A complaint challenging the results of a primary election,
special primary election, or county election fails to state a
claim unless the plaintiff demonstrates errors, mistakes or
irregularities that would change the outcome of the election.
See **HRS § 11-172 (2009); Tataii v. Cronin. 119 HawaPi
337, 339, 198 P.3d 124, 126 (2008); ?* Akaka v. Yoshina.
84 HawaPi 383, 387, 935 P.2d 98, 102 (1997); Funakoshi v.
Kins. 65 Haw. 312,317,651 P.2d 912,915 (1982); EUdnsyi
Arivoshi- 56 Haw. 47,48,527 P.2d 236, 237 (1974).
6. A plaintiff contesting such an election must show that he or
she has actual information of mistakes or errors sufficient to
changetheresult. Tataii. 119 HawaPi at339,198 P.3d at 126;
Akaka. 84 Hawai‘i at 388, 935 P.2d at 103; Funakoshi. 65
Haw. at 316-317,651 P.2d at 915.
7. It is not sufficient for a plaintiff challenging an election
to allege a poorly run and inadequately supervised election
process that evinces room for abuse or possibilities of fraud.
An election contest cannot be based upon mere belief or
indefinite information. Tataii v. Cronin. 119 HawaPi at 339,
198 P.3d at 126; WAkaka v. Yoshina. 84 HawaLi at 387-388,
935 P.2d at 102-103.
8. Taking Dicks's allegations as tme and viewing them in the
light most favorable to him, it appears that Dicks can prove
no set of facts that would entitle him to relief. Dicks does

WE5TLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Dicks v. Office of Elections, Not Reported in Pac. Rptr. (2020)
2020 WL 4784674
not present specific acts or “actual information of mistakes or
error sufficient to change the results of the election.”
9. In a primary election, special primary election, or county
election challenge, -HRS § 11-173.5(b) authorizes the
supreme court to “decide what candidate was nominated or
elected.”
r ■

10. The remedy provided by - ' HRS § 11 -173.5(b) of having
the court decide which candidate was nominated or elected
is the only remedy that can be given for primary election

JUDGMENT
Based upon the foregoing findings of fact and conclusions of
law, the judgment is entered dismissing the complaint. Rick
Blangiardi and Keith Amemiya are the two candidates who
received the highest number of votes, and their names shall be
placed on the ballot for the November 2020 general election.
The cleric of the supreme court shall also forthwith serve a
certified copy of this judgment on the chief election officer
and the county clerk of the City and County of Honolulu in

1

irregularities challenged pursuant to - HRS § 11-173.5.
Funakoshi v. King. 65 Haw. at 316,651 P.2d at 914.

accordance with

11. None of the remedies requested by Dicks are authorized
rby- HRS § 11-173.5(b).

All Citations

End of Document

'HRS § ll-173.5(b).

Not Reported in Pac. Rptr., 2020 WL 4784674

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WE5TLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Fanene v. State Office of Elections, Not Reported in Pac. Rptr. (2020)
2020 WL 5056605
'
'

2020 WL 5056605
Only the Westlaw citation is currently available.

2.
HRS § 11-173.5, which governs primary election
contests, provides in relevant part that:

Unpublished opinion. See HI
R RAP Rule 35 before citing.

[T]he court shall cause the evidence
to be reduced to writing and shall
not later than 4:30 p.m. on the fourth
day after the return give judgment
fully stating all findings of fact and of
law. The judgment shall decide what
candidate was nominated or elected[.]

Supreme Court of Hawaii.
Banner S. FANENE, Plaintiff,
v.
STATE of Hawaii OFFICE
OF ELECTIONS, Defendant.
SCEC-20-0000517
August 27,2020
ORIGINAL PROCEEDING
(By: Recktenwald, C.J., Nakayama, McKenna and Wilson,
JJ., and Circuit Judge Kuriyama, assigned by reason by
vacancy)

ORDER DISMISSING ELECTION COMPLAINT
*1 Upon consideration of Plaintiff Banner S. Fanene's
election contest complaint filed on August 20, 2020,
Defendant State of HawaTi Office of Elections' motion to
dismiss the complaint, and the records and files herein,
It appears that:
1. In the election contest complaint, Plaintiff asks that all
candidates listed on the primary election ballot be listed on
the general election ballot; and that the Chief Election Officer
be asked to submit his resignation.
End of Document

3. Pursuant to the plain language of HRS § 11-173.5, the
only remedy this court can provide is to give a judgment as to
who was nominated or elected; and
4. The court cannot invalidate the primary election and move
everyone on the primary election ballot to the general election
ballot. Nor can the court ask the Chief Election Officer to
resign. Sas Funakoshi v. King. 65 Haw. 312, 314, 651 P.2d
912,913 (1982) (the only relief to which a plaintiff is entitled
under HRS§ 11-173.5 is to have the court declare the name
of the candidate to be nominated or elected).
Therefore,
IT IS HEREBY ORDERED that the motion to dismiss is
granted, and the complaint is dismissed.

All Citations
Not Reported in Pac. Rptr., 2020 WL 5056605

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WISTLAW @ 2020 fftomsan Rentes. Ro dstm to original: U.S. Gotfemmeni Waste.

1

}

\

Electronically Filed
Supreme Court
SCEC-20-0000721
22-DEC-2020
08:30 AM
Dkt. 67 ODMR
SCEC-20-0000721
IN THE SUPREME COURT OF THE STATE OF HAWAl‘l
EMIL SVRCINA; KARL DICKS; and BANNER FANENE, Plaintiffs,
vs.
SCOTT T. NAGO, in his capacity as Chief Election Officer
for the State of Hawaii; STATE OF HAWAI‘1 OFFICE OF ELECTIONS;
and GLEN TAKAHASHI, in his capacity as City Clerk
of the City and County of Honolulu, Defendants.
ORIGINAL PROCEEDING
ORDER DENYING MOTIONS FOR RECONSIDERATION
(By: Recktenwald, C.J., Nakayama, McKenna, and Wilson, JJ.,
and Circuit Judge To‘oto‘o, assigned by reason of vacancy)
Upon consideration of plaintiffs Emil Svrcina, Karl
Dicks, and Banner Fanene's four motions for reconsideration,
filed on December 17, 2020 and December 18, 2020, respectively,
the documents submitted in support thereof, and the record,
IT IS HEREBY ORDERED that the motions for
reconsideration are denied.
DATED: Honolulu, Hawai'i, December 22, 2020.
/s/ Mark E. Recktenwald
/s/ Paula A. Nakayama
/s/ Sabrina S. McKenna
Is/ Michael D. Wilson
/ s/ Fa'auuga To‘oto‘o

t

Additional material
from this filing is
available in the
Clerk's Office.

